         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL


                                        Catalyst for Improving the Environment


Audit Report




       EPA Can Improve Its Preparation
       and Use of Independent
       Government Cost Estimates
       for Superfund Contracts

       Report No. 10-P-0065

       February 16, 2010
Report Contributors:                    Nancy Dao
                                        Doug LaTessa
                                        Kevin Lawrence
                                        Michael Petscavage




Abbreviations

CMM          Contracts Management Manual
EPA          U.S. Environmental Protection Agency
ERRS         Emergency and Rapid Response Services
ESAT         Environmental Services Assistance Team
FAR          Federal Acquisition Regulation
GAO          Government Accountability Office
IGCE         Independent Government Cost Estimate
OAM          Office of Acquisitions Management
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
OSRTI        Office of Superfund Remediation and Technology Innovation
OSWER        Office of Solid Waste and Emergency Response
QAP          Quality Assessment Plan
RAC          Remedial Action Contract
SOW          Statement of Work
START        Superfund Technical Assessment and Response Team
TDF          Technical Direction Form
                       U.S. Environmental Protection Agency                                               10-P-0065 

                       Office of Inspector General                                                 February 16, 2010





                       At a Glance
                                                                       Catalyst for Improving the Environment

Why We Did This Review             EPA Can Improve Its Preparation and Use of
We conducted this audit to         Independent Government Cost Estimates for
determine whether the U.S.         Superfund Contracts
Environmental Protection
Agency (EPA) is preparing           What We Found
quality Independent
Government Cost Estimates          EPA can improve its Superfund IGCEs and the corresponding cost estimating
(IGCEs) that can be used to        process. In 30 of the 42 cases we reviewed, EPA did not sufficiently document
evaluate whether EPA receives      information in its Superfund IGCEs. Additionally, in 9 of the 42 cases, EPA did
the best value for dollars         not update the IGCEs when significant changes occurred. In 8 of the 42 cases,
expended on Superfund              EPA program staff accepted the contractor’s estimate without evaluating why it
contracts.                         differed from the IGCE. Finally, in some cases EPA did not prepare an IGCE for
                                   actions with a potential value in excess of $100,000, the Federal Acquisition
Background                         Regulation threshold for simplified acquisitions. These actions are contrary to
                                   the Government Accountability Office Cost Estimating and Assessment Guide
An IGCE is a detailed estimate
                                   and the EPA Contracts Management Manual. They occurred because there is an
of what a reasonable person
                                   overall lack of emphasis by EPA management on the preparation and use of
should pay to obtain the best
                                   IGCEs. EPA limits its ability to negotiate a fair and reasonable price when it
value for a product or service.
                                   does not have a well-supported IGCE.
EPA’s training guide for
IGCEs states that, “they are an
integral part of any effective
                                    What We Recommend
acquisition program.” IGCEs
are used to plan costs for new
                                   We recommend that EPA place greater emphasis on IGCEs through training and
contracts and new work under
                                   tools for creating IGCEs. EPA should prepare IGCEs for all contract actions
existing contracts. Once
                                   expected to exceed the simplified acquisition threshold and discontinue the
program personnel prepare the
                                   practice of relying only on the contractors’ estimates.
IGCE, the IGCE should then be
compared to the contractor’s
proposal to help determine         EPA agreed with all of our recommendations and provided a corrective action
price reasonableness.              plan for most of the recommendations. EPA indicated it will provide its entire
                                   corrective action plan as part if its response to the final report.

For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100216-10-P-0065.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                        February 16, 2010

MEMORANDUM

SUBJECT:	 EPA Can Improve Its Preparation and Use of Independent Government
          Cost Estimates for Superfund Contracts
          Report No. 10-P-0065


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Craig E. Hooks
               Assistant Administrator
               Office of Administration and Resources Management

               Mathy Stanislaus 

               Assistant Administrator 

               Office of Solid Waste and Emergency Response 


               Karl Brooks               

               Regional Administrator, Region 7 



This is our report on the U.S. Environmental Protection Agency’s (EPA’s) preparation and use of
Independent Government Cost Estimates (IGCEs). This audit report contains findings that
describe the problems the EPA Office of Inspector General (OIG) has identified and corrective
actions the OIG recommends. This report represents the position of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $449,120.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.
If you or your staff have any questions, please contact me at 202-566-0899 or
heist.melissa@epa.gov; or Janet Kasper, Product Line Director, at 312-886-3059 or
kasper.janet@epa.gov .
EPA Can Improve Its Preparation and Use of Independent                                                                      10-P-0065
Government Cost Estimates for Superfund Contracts



                                  Table of Contents 


Chapters 

   1    Introduction ...........................................................................................................      1

                Purpose ..........................................................................................................    1         

                Background ....................................................................................................       1         

                Noteworthy Achievements..............................................................................                 2         

                Scope and Methodology.................................................................................                2


   2    EPA Superfund Can Improve Its Independent Government Cost Estimates ..                                                        5

                Superfund Staff Need to Better Document Rationale,
                     Assumptions, and Changes .................................................................                       5

                Superfund Staff Should Not Rely on Contractor Proposed Amounts .............                                          6

                Superfund Staff Need to Prepare IGCEs for All Contract Actions
                     Over the Simplified Acquisition Threshold............................................                            7

                EPA Should Place Greater Emphasis on IGCEs............................................                                8

                Conclusion......................................................................................................      9         

                Recommendations .........................................................................................            10         

                Agency Comments and OIG Evaluation.........................................................                          10 


   3    EPA Region 7 Improved Cost Management for Its ESAT Contract ..................                                               12 


   Status of Recommendations and Potential Monetary Benefits.................................                                        13     




Appendices 

   A    List of Superfund Contracts Reviewed ...............................................................                         14


   B    Agency Response .................................................................................................            16


   C    Distribution ............................................................................................................    19 

                                                                                     10-P-0065 





                                Chapter 1

                                 Introduction
Purpose
          The U.S. Environmental Protection Agency’s (EPA’s) Office of Inspector
          General (OIG) conducted this audit to determine whether the Agency is preparing
          quality Independent Government Cost Estimates (IGCEs) that can be used to
          evaluate whether it receives the best value for dollars expended on Superfund
          contracts.

Background
          An IGCE is a detailed estimate of what a reasonable person should pay to obtain
          the best value for a product or service. It should include priorities and
          assumptions that exist at the time the estimate is made. In a training guide on
          IGCEs, EPA’s Office of Acquisition Management (OAM) states, “They are an
          integral part of any effective acquisition program.” OAM further states, “EPA’s
          goal for cost estimates is to achieve predictions that are as accurate as possible
          using the information available and the best estimating technique for a given
          situation. Both involve the use of any historical data available.”

          Quality cost estimates help EPA ensure it obtains fair and reasonable prices for
          desired goods and services. EPA’s Strategic Plan states, “EPA is committed to
          being a good steward of our environment and a good steward of America’s tax
          dollars. To provide the public with the environmental results it expects and
          deserves, we must operate as efficiently and effectively as possible.…”

          EPA uses IGCEs to plan costs for new contracts as well as modifications, new
          work assignments, and task or delivery orders under existing contracts. EPA’s
          program offices are responsible for preparing IGCEs. In preparing the IGCE, the
          program office uses various methods to estimate the resources necessary to
          perform the activities detailed in the Statement of Work (SOW). The program
          office compares the IGCE to the contractor’s proposal to help determine cost
          reasonableness. According to the Federal Acquisition Regulation (FAR), the
          contracting officer’s responsibility is to provide necessary support for contractual
          issues, including assuring the reasonableness of costs.

          EPA’s Office of Solid Waste and Emergency Response (OSWER) oversees the
          Superfund program. Superfund is the name given to the environmental program
          established to address abandoned hazardous waste sites. It is also the name of the
          fund established by the Comprehensive Environmental Response, Compensation,
          and Liability Act of 1980, as amended. This law was enacted in the wake of the
          discovery of toxic waste dumps. It allows the EPA to clean up such sites and to


                                            1

                                                                                  10-P-0065


         compel responsible parties to perform clean-ups or reimburse the government for
         EPA-led clean-ups.

Noteworthy Achievements
         We identified noteworthy achievements in the form of a student guide and tools
         available to assist EPA personnel in preparing IGCEs. However, these resources
         need to be updated and re-emphasized. EPA made IGCE related resources
         available following previous OIG and Government Accountability Office (GAO)
         reports that cited issues regarding EPA’s preparation and use of IGCEs.

         In 1998, OAM developed a guide for preparing and using IGCEs. The guide
         details the importance of IGCEs and the important components that should be
         contained in IGCEs. The guide also specifies the potential uses of an IGCE.

         The Office of Superfund Remediation and Technology Innovation (OSRTI)
         developed a cost estimating toolbox. The toolbox is a database resource that
         provides comprehensive information for staff to use when preparing IGCEs for
         Remedial Action Contracts (RACs). It defines IGCEs and the associated cost
         elements and provides the purpose for developing IGCEs. Spreadsheet templates
         are provided for several phases of RAC contracts and can serve as a basis for staff
         to prepare their own IGCEs. The toolbox emphasizes the importance of
         documenting assumptions when preparing IGCEs. It also provides model SOWs,
         as well as IGCE checklists.

Scope and Methodology
         GAO and the OIG have historically raised concerns regarding EPA’s preparation
         and use of IGCEs. In a report issued in 2007, the OIG discussed problems
         relating to EPA’s use and management of IGCEs. To address these concerns, we
         performed this audit from June 2008 to October 2009 in accordance with
         generally accepted government auditing standards issued by the Comptroller
         General of the United States. These standards require that we plan and perform
         the audit to obtain sufficient and appropriate evidence to provide a reasonable
         basis for our findings and conclusions based on our audit objectives. We believe
         that the evidence obtained provides a reasonable basis for our findings and
         conclusions based on our audit objectives.

         The scope of this report deals only with IGCEs for EPA Superfund contracts. We
         reviewed the active contracts listing to determine which to include in our sample.
         We judgmentally selected contracts based on factors such as contract type, region
         or area where the contract is located, dollar value, period of performance, etc. In
         total, we selected 17 Superfund contracts from Headquarters and Regions 2, 4, 5,
         and 7. For each contract we reviewed, we judgmentally selected multiple work
         assignments, task orders, and/or technical direction documents for further review.
         We reviewed the corresponding files for information relating to cost estimates.


                                          2

                                                                          10-P-0065 



Appendix A contains a complete list of the Superfund contracts we reviewed as
well as the work assignments, task orders, and/or technical direction documents
reviewed from each.

We conducted site visits to each location within our sample. During the site
visits, we reviewed the overall contract, SOW, and documents from the preaward
file relating to cost estimating for each contract in our sample. We reviewed
documents ordering work (i.e., work assignments, task orders, and technical
direction documents) from each contract for information relating to cost
estimating. We interviewed contracting officers and project officers associated
with the contracts in our sample. In several instances, we also interviewed
personnel at the level where work is ordered to gain a better understanding of the
cost estimating and negotiation processes.

We reviewed IGCEs to determine their overall quality. To measure the quality of
IGCEs, we developed a list of the following five criteria that were taken from
EPA’s Guide for Preparing Independent Government Cost Estimates and an
exposure draft of GAO’s Cost Assessment Guide, which became final in March
2009.

   •	 The task is clearly identified: Estimator must be provided with a clear
      description of the task, including ground rules, assumptions, and technical
      and performance characteristics relating to the task. The estimate’s
      constraints and conditions must be clearly identified to ensure the
      preparation of a well-documented estimate. A well-written SOW is
      integral to the development of an IGCE.

   •	 Relevant data is identified and used: To the extent possible, multiple
      sources of data should be used. The estimator(s) should determine the
      availability of historical data and use that which relates to the applicable
      task.

   •	 A defined/structured estimating process is used: The estimator(s)
      should determine and document the process for estimating prior to starting
      the process and document why the method was selected. The estimating
      process should be accomplished at the task level through the use of the
      work breakdown structure, created using either a bottom-up or top-down
      approach.

   •	 The cost estimate is revised as program changes occur because large
      changes that affect costs can significantly influence program
      decisions: Cost estimates need to be fluent and refined as work and
      planning progress. A fluent cost estimating process provides an allowance
      for uncertainties to be addressed as they become known.




                                 3

                                                                        10-P-0065 



   •	 The assumptions for the IGCE are documented, and the IGCE is
      complete: The rationale for the IGCE should be documented and the
      IGCE should contain all required tasks.

Related Audit Coverage

While conducting this audit, we determined that EPA’s Acquisition Regulation
contains language that requires EPA to provide total labor hour estimates to the
contractor within work assignments. If this information is provided to the
contractor prior to receiving the proposal, EPA jeopardizes the assurance of cost
reasonableness and overall effectiveness of the estimating process. To address
this issue, we issued a separate report, “EPA Should Stop Providing Estimates of
Total Labor Hours to Contractors,” on September 9, 2009 (OIG Report No.
09-P-0229).

Internal Control Structure

In planning and performing our audit, we reviewed management controls related
to our objectives. Specifically, we examined EPA’s Contracts Management
Manual (CMM), EPA’s Acquisition Regulation, the OAM guide for developing
IGCEs, an Office of Federal Procurement Policy letter, and several OSWER
Directives. We reviewed Quality Assessment Plans (QAP) from each program
operating division. We also looked at OAM’s review of the QAPs.

We reviewed documents EPA completed in compliance with the Federal
Managers’ Financial Integrity Act. This included a review of numerous
documents within EPA’s Office of Administration and Resources Management’s
(OARM) Fiscal Year 2008 Federal Managers’ Financial Integrity Act Assurance
Letter. EPA did not report any material or Agency weaknesses related to its
preparation and use of IGCEs.




                                 4

                                                                                     10-P-0065 





                                 Chapter 2

            EPA Superfund Can Improve Its 

        Independent Government Cost Estimates 

          EPA can improve Superfund IGCEs and the cost estimating process. Superfund
          program staff are not sufficiently documenting rationale, assumptions, and
          changes relating to its IGCEs. Program staff sometimes rely on the contractor’s
          cost estimates without evaluating why it differs from the IGCE. In some cases,
          EPA program staff do not prepare an IGCE for contract actions in excess of the
          simplified acquisition threshold. GAO and OAM guides address these issues by
          indicating that all aspects of cost estimating should be documented and IGCEs
          should be updated when significant changes occur. Further, the CMM requires
          project officers to submit IGCEs for all contract actions with a potential value that
          will exceed the simplified acquisition threshold of $100,000. A primary reason
          Superfund IGCEs need improvement is because there is an overall lack of
          emphasis by management on the preparation and use of IGCEs. The guide and
          other resources related to IGCEs are outdated and employees responsible for
          preparing and reviewing IGCEs are undertrained. As a result, the value of the
          IGCE as a tool for ensuring fair and reasonable contract prices is diminished.

Superfund Staff Need to Better Document Rationale, Assumptions,
and Changes
          Superfund IGCEs lacked documentation for the basis of the estimated costs for
          30 of the 42 contract actions we reviewed. OAM’s IGCE guide specifies that the
          reasons costs are included within IGCEs should be documented as well as any
          assumptions made that may impact costs. Documenting the rationale and
          assumptions associated with cost estimates will provide sound support to use
          during negotiations with the contractor. GAO’s Cost Estimating and Assessment
          Guide specifies that all aspects of cost estimates should be documented.
          Documentation supporting IGCEs should include information that will allow a
          cost analyst unfamiliar with the program to determine how the estimate was
          developed.

          The IGCEs were missing supporting documentation such as the reason for
          proposed labor hours, the labor mix, travel costs, etc. For example, one work
          assignment under a RAC contract was broken down into nine different tasks. The
          IGCE contained level-of-effort estimates by task and was developed using a
          template that factors in historical rates such as average labor category rates, and
          historical indirect rates. However, Superfund program staff did not document
          assumptions for specific level-of-effort estimates for the number of hours or other
          direct cost amounts included in the IGCE. As another example, a task order under
          an Emergency and Rapid Response Services (ERRS) contract contained a SOW


                                            5

                                                                                    10-P-0065 



          that clearly described 11 different tasks to be carried out. Even though the SOW
          clearly described the tasks, the IGCE did not explicitly document the
          assumptions, rationale, or historical basis (if any) for the number of hours
          estimated. GAO recommends that to the extent possible, multiple sources of data
          should be used when preparing an IGCE. GAO also recommends that cost
          estimators determine the availability of historical data and use that which relates
          to the applicable task. Without adequate documentation of the rationale,
          assumptions, or historical data to support cost estimates, the IGCE does not
          provide the information needed to evaluate the contractor’s proposed prices.

          For 9 of 42 contract actions, Superfund program staff did not update IGCEs to
          reflect significant changes to the scope of work. GAO’s cost estimating guide
          states that estimates should be updated to reflect changes, especially large
          changes, since they can significantly impact program decisions. However, nine
          IGCEs were not updated when significant changes occurred to the corresponding
          task order/work assignment. For example, one work assignment under a RAC 2
          contract underwent changes resulting in a substantial decrease in the cost
          estimate, but the IGCE was not updated. The initial IGCE, completed in June
          2006, estimated costs would range from $21 million to $31.5 million. After a
          third contract revision in March of 2008, the contractor’s estimate was approved
          for $15.8 million. For each revision, the contractor submitted a revised workplan.
          However, program staff did not revise the IGCE during a 2½ year span of the
          work assignment. The only revised IGCE was completed in October 2008,
          one week prior to the OIG site visit. If IGCEs are not updated when significant
          changes occur, Superfund program staff may not have the necessary information
          to make important program decisions, such as distribution of resources and
          negotiation of contract price.

Superfund Staff Should Not Rely on Contractor Proposed Amounts
          When there was a difference between the IGCE and contractor’s proposed price,
          Superfund program staff accepted the contractor’s price without additional
          analysis in 8 of 42 (19 percent) cases reviewed. The IGCE is a tool program staff
          use when reviewing the contractor’s proposed price. Program staff should
          compare the hours and rates contained in the proposal to those estimated within
          the IGCE. Such an analysis would allow program staff to determine whether
          proposals overstate or understate work, or whether prices are too high or low, and
          determine the fair and reasonable price for labor hours. Superfund program staff
          are not always using the IGCE to conduct this analysis.

          In eight cases, the final agreed-to price was the same as the contractor’s proposal
          and there was no evidence that program staff examined the reasons for the
          difference between the IGCE and proposed price (see Table 2-1 below).




                                            6

                                                                                               10-P-0065 



          Table 2-1: Examples where Superfund relied on contractor estimates
                                                                              Difference
                                                                           Between IGCE and
                                              Contractor     Approved         Contractor
             Example          IGCE             Estimate       Amount           Estimate
                1               $12,935            $64,988       $64,988             $52.053
                2               $71,383            $72,435       $72,435              $1,052
                3           $27,862,037        $14,845,475   $14,845,475       $-13,016,562
                4            $2,193,769         $2,332,238    $2,332,238           $138,469
                5              $109,789           $119,316      $119,316              $9,527
                6               $65,046            $48,151       $48,151            $-16,895
                7              $110,452           $117,335      $117,335              $6,883
                8              $111,948           $106,531      $106,531             $-5,417
          Source: OIG analysis of EPA data.


          Program staff sometimes accept the contractor’s proposal if it is within a certain
          percentage of the IGCE. However, the percentage used was not consistent and
          varied among those interviewed. For example, the program staff responsible for
          items 7 and 8 in Table 2-1 stated that they generally accept any proposed costs
          within 10 percent of the IGCE without further analysis. In the case of example 6,
          program staff stated that they generally accept any proposal within 20 percent of
          the IGCE without additional analysis. In this case, the program staff accepted the
          contractor’s proposal without additional analysis even though the proposal was
          26 percent less than the IGCE. Even though the amount proposed was less,
          Superfund program staff cannot be reasonably assured that some of the individual
          amounts within the proposal were not overstated. The costs may be significantly
          understated and relying on these amounts could impact the program’s ability to
          reasonably plan future work. By not analyzing why there was a difference in the
          price, or documenting the analysis of reasons for the difference, Superfund
          program staff diminished the value of the IGCE in determining the reasonableness
          of the final price.

Superfund Staff Need to Prepare IGCEs for All Contract Actions Over
the Simplified Acquisition Threshold

          Superfund program staff are not always producing IGCEs for work ordered with
          estimated costs expected to exceed the simplified acquisition threshold of
          $100,000. The CMM states that, “POs [project officers] shall submit IGCEs for
          all contract actions with a potential value in excess of the FAR threshold for
          simplified acquisitions.” The CMM further states that, “COs [contracting
          officers] may also require IGCEs for actions below the FAR threshold for
          simplified acquisitions” if deemed necessary and appropriate. However, for three
          contracts in our sample, POs did not prepare IGCEs as required.

              •	 The PO for the Region 5 Superfund Technical Assessment and Response
                 Team (START) contract did not prepare IGCEs at the task order or
                 technical direction level. This contract establishes large task orders that
                 generally describe the work to be done in broad terms. These task orders
                 act as a sort of overall budget for the task. During contract performance,


                                                  7

                                                                                   10-P-0065 



                work is ordered under these task orders using technical direction
                documents. These technical direction documents specifically describe the
                work to be done (location, scope, etc.). The project officer indicated that
                she does not prepare IGCEs for the START contract because she does not
                believe they are useful.

            •	 Region 7 does not prepare IGCEs at the technical direction level for its
               Environmental Services Assistance Team (ESAT) contract. The ESAT
               contract uses 11 task orders that describe the work to be performed in
               broad terms. Under these task orders, work is later specifically defined
               and ordered using technical direct documents. However, Region 7 only
               prepares IGCEs at the broader task order level. For example, one of the
               task orders broadly directs work to be performed for Superfund program
               support. Later, specific descriptions of work to be performed are
               presented in a technical direction document, such as “Analyze 1 PT water
               sample for Selenium, by Region 7 approval methods. Process the data and
               prepare final data reports.”

            •	 Region 4 did not prepare an IGCE for one task order totaling almost
               $1.3 million under its ERRS contract. The task order was funded through
               the Coast Guard’s National Pollution Fund (but managed by EPA) and no
               IGCE was prepared. EPA staff informed us that the on-site coordinator is
               warranted up to $50,000 to respond to an oil spill emergency. Beyond
               that, approval must be given by the Coast Guard case officer. The initial
               award for this task order was for $150,000 and no IGCE was done because
               it was an emergency situation. However, the task order was amended
               three times, bringing the total approved cost ceiling to almost $1.3 million,
               and no IGCE was ever prepared. While we recognize that the initial
               emergency should be responded to without delay, we believe Superfund
               program staff should prepare an IGCE once the situation has stabilized
               and before it awards further funding.

EPA Should Place Greater Emphasis on IGCEs
         A primary reason Superfund IGCEs need improvement is because management
         does not adequately emphasize the preparation and use of IGCEs. The OAM
         IGCE guide has not been updated since 1998. Additionally, training on IGCEs
         has been minimal and program office and regional reviews of the acquisition
         process do not directly address IGCEs. The lack of emphasis has resulted in the
         conditions identified in this audit and diminished the value of the IGCE as a tool
         for ensuring that contractor prices are reasonable.

         OAM and the Superfund program office developed tools and guidance relating to
         IGCEs more than 10 years ago. The CMM refers program staff to the student
         guide for guidance on preparing IGCEs. The guide has not been updated in the
         last 10 years, and does not include some current practices, such as using a


                                          8

                                                                                 10-P-0065 



         technical direction document to order work. Also, in March 2009, GAO
         completed a cost estimating guide. EPA’s guide needs to reflect the information
         contained in GAO’s cost estimating guide.

         Superfund program staff involved in the cost estimating process informed us that
         training relating to IGCEs has been minimal within the last 10 years. EPA does
         not have a specific training course for IGCEs. Project Officers receive some
         IGCE training as part of their Contracting Officer Representative training.
         However, IGCEs make up only a few pages of the training text.

         Additionally, some employees were not aware of the guidance and tools available
         to assist in preparing IGCEs. For example, OSRTI developed a cost estimating
         toolbox. It provides comprehensive information for staff to use when preparing
         IGCEs for RAC contracts. Six of the nine RAC project officers/work assignment
         managers interviewed were not aware of the toolbox. This toolbox is of little use
         for those employees who are not aware it exists.

         EPA also needs to better emphasize IGCEs in its QAPs. QAPs are management
         plans developed by EPA program offices and regions to help ensure an overall
         effective acquisition process. The QAPs for EPA program offices and regions did
         not address the preparation and/or use of IGCEs.

Conclusion
         The IGCE is a tool that the Superfund program can use to evaluate the
         reasonableness of the contractor’s proposed price. A quality IGCE includes
         documentation of assumptions and reflects updates based on changed conditions.
         When Superfund prepares IGCEs, the assumptions and rationale are not always
         documented and updated. Additionally, Superfund does not always document the
         reasons for accepting the contractor’s price when it differs from the IGCE.
         Finally, IGCEs are not used for all contract actions. Superfund program staff
         should be preparing IGCEs and comparing the estimated hours and rates to those
         contained within the contractor’s proposal. This comparison will enhance the
         program‘s ability to determine whether proposals overstate or understate work, or
         whether prices are too high or low. Without a fully supported IGCE, Superfund
         program staff cannot conduct such an analysis. As a result, Superfund is
         diminishing the IGCE’s value as a tool to ensure fair and reasonable contract
         prices.




                                         9

                                                                                   10-P-0065 



Recommendations
         We recommend that the Assistant Administrator for Administration and
         Resources Management:

         2-1 	   Require OAM to update its IGCE guide to address:
                    •	 Technical direction documents that exceed the simplified
                        acquisition threshold.
                    •	 Emergency acquisitions.
                    •	 The GAO Cost Estimating and Assessment Guide.

         2-2 	   After the OAM IGCE guide is updated, require EPA regions and program
                 operating divisions to conduct a review to verify compliance with the
                 updated guide.

         We recommend that the Assistant Administrator for Administration and
         Resources Management and the Assistant Administrator for Solid Waste and
         Emergency Response:

         2-3	    Eliminate the practice of accepting contractor estimates that differ from
                 IGCEs without examining the reason for the difference.

         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         2-4 	   Require the Superfund program to update, distribute, and maintain its
                 supplemental tools and guidance used for IGCE preparation (e.g.,
                 OSRTI’s cost estimating toolbox).

         We recommend that the Assistant Administrator for Administration and
         Resources Management and the Assistant Administrator for Solid Waste and
         Emergency Response:

         2-5	    Instruct OAM and the Superfund program office to provide training to
                 Superfund program staff on IGCE tools and databases, as well as OAM
                 and Superfund IGCE guidance.

Agency Comments and OIG Evaluation

         EPA agreed with recommendations 2-1, 2-4, and 2-5, and provided milestone
         dates for completion of the following items:

             •	 Revise OAM’s IGCE guide (June 1, 2010)
             •	 Update, distribute, and maintain Superfund’s supplemental tools for IGCE
                preparation (September 30, 2010)



                                          10 

                                                                         10-P-0065 



   •	 Provide training to Superfund staff on IGCE tools and guidance 

      (September 30, 2010). 


The Agency’s response will address these recommendations.

Regarding recommendation 2-2, EPA did not agree that it should incorporate
compliance with the IGCE guide into its QAP because the QAP is an OAM tool
and not a program tool. EPA stated that preparation of IGCEs is the
responsibility of the program office. EPA believes that by updating the IGCE
guide and providing training to the program office, IGCE quality will improve.
At the exit conference, OAM officials agreed that a review to verify compliance
was needed, but expressed a preference to not include that as part of the QAP.
Based on the discussion, we revised the recommendation. EPA will need to
provide an action plan, with milestone dates, for addressing the recommendation
when responding to the final report.

In response to recommendation 2-3, the Agency stated that the recommendation
should be addressed to OSWER and that the offices will work together to update
the IGCE guide and training. We revised the recommendation to include
OSWER as suggested. At the exit conference, OAM officials clarified that the
updated IGCE guide will address the practice of accepting contractor estimates
that differ from IGCEs without examining the reason for the difference. With the
clarification, the response addresses the recommendation.

See EPA’s full response in Appendix B.




                               11 

                                                                         10-P-0065 





                         Chapter 3

EPA Region 7 Improved Cost Management 

         for Its ESAT Contract 

Based on our audit work, EPA Region 7 took actions to improve the cost
management of the ESAT contract. EPA Region 7 had not been reviewing and
managing ESAT contract costs at the Technical Direction Form (TDF) level,
which is the level where work is ordered. EPA’s CMM provides that it is the
policy of the Government to review contract invoices thoroughly for cost
reasonableness to facilitate payment of costs which are allowable, allocable, and
reasonable. Adequate invoice reviews were not occurring because the Region 7
ESAT contract gives the project officer the flexibility to determine the level of
detail that needs to be contained in monthly financial reports. The PO did not
require the contractor to provide cost data at the TDF level. Without detailed cost
data broken out by TDF, the project officer could not determine the
reasonableness of invoiced costs charged for specific work performed.

During the audit, we discussed with Region 7 management and staff our concerns
about the reporting under the ESAT contract. Region 7 believed that the invoices
did contain all the necessary information to ensure charges were fair and
reasonable. However, the Region did acknowledge that the information was not
contained in an effective format for review and that efficiencies in the review
process could be realized by requiring data at the TDF level in monthly reports.
Therefore, Region 7 management and staff fully implemented our planned
recommendation to require the contractor to include detailed cost breakouts by
task order and TDF in its monthly invoices. Based on Region 7’s timely
response, we determined no further recommendations are needed regarding this
finding in this report.




                                12 

                                                                                                                                        10-P-0065



                               Status of Recommendations and
                                 Potential Monetary Benefits
                                                                                                                              POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                  Planned
Rec.       Page                                                                                                  Completion   Claimed    Agreed To
No.         No.                        Subject                          Status1         Action Official             Date      Amount      Amount

2-1         10    Require OAM to update its IGCE guide to address:        O        Assistant Administrator for   06/01/2010
                    • Technical direction documents that exceed                       Administration and
                      the simplified acquisition threshold.                         Resources Management
                    • Emergency acquisitions.
                    • The GAO Cost Estimating and Assessment
                      Guide.

2-2         10    After the OAM IGCE guide is updated, require EPA        U        Assistant Administrator for
                  regions and program operating divisions to conduct                  Administration and
                  a review to verify compliance with the updated                    Resources Management
                  guide.

2-3         10    Eliminate the practice of accepting contractor          O        Assistant Administrator for 06/01/2010
                  estimates that differ from IGCEs without examining                   Administration and
                  the reason for the difference.                                  Resources Management and
                                                                                   Assistant Administrator for
                                                                                  Solid Waste and Emergency
                                                                                           Response

2-4         10    Require the Superfund program to update,                O        Assistant Administrator for 09/30/2010
                  distribute, and maintain its supplemental tools and             Solid Waste and Emergency
                  guidance used for IGCE preparation (e.g., OSRTI’s                        Response
                  cost estimating toolbox).

2-5         10    Instruct OAM and the Superfund program office to        O        Assistant Administrator for 09/30/2010
                  provide training to Superfund program staff on                       Administration and
                  IGCE tools and databases, as well as OAM and                    Resources Management and
                  Superfund IGCE guidance.                                         Assistant Administrator for
                                                                                  Solid Waste and Emergency
                                                                                           Response




      1	    O = recommendation is open with agreed-to corrective actions pending;
            C = recommendation is closed with all agreed-to actions completed;
            U = recommendation is undecided with resolution efforts in progress




                                                                              13 

                                                                     10-P-0065


                                                                 Appendix A


           List of Superfund Contracts Reviewed
    Region       Contract           WA/TO/TDD*         Type of Contract

Region 4       68-W-99-043   WA-015                  RAC
               68-W-99-043   WA-648                  RAC

               EP-S4-07-02   TO 0035                 ERRS III
               EP-S4-07-02   TO 0035 - Mod 1         ERRS III
               EP-S4-07-02   TO-0035 - Mod 2         ERRS III
               EP-S4-07-02   TO-0035 - Mod 3         ERRS III
               EP-S4-07-02   TO 0039                 ERRS III
               EP-S4-07-02   TO 0052                 ERRS III

               EP-W-05-053   TO 001/TDD 026          START III
               EP-W-05-053   TO 001/TDD 049          START III
               EP-W-05-053   TO 003/TDD 041          START III

Region 5       EP-S5-06-04   TDD-S05-0005-0609-067   START III
               EP-S5-06-04   TDD-S05-0001-0711-022   START III

               EP-S5-06-01   WA 021-RARA-1523        RAC 2
               EP-S5-06-01   WA 044-RDRD-B51Z        RAC 2

               EP-S5-06-06   TO 3                    ROC 3
               EP-S5-06-06   TO 8                    ROC 3

Headquarters   EP-W-06-019   TO 3                    Region 7ESAT
               EP-W-06-019   TO 10                   Region 7 ESAT

               68-W-02-073   WA 7                    OSRE2
               68-W-02-073   WA 19                   OSRE2

               EP-W-05-060   WA 1-08                 HW Methods Support
               EP-W-05-060   WA 1-11                 HW Methods Support

Region 7       EP-S7-05-06   TO 005                  RAC II
               EP-S7-05-06   TO 0027                 RAC II
               EP-S7-05-06   TO 0062                 RAC II
               EP-S7-05-06   TO 0010                 RAC II

               EP-S7-05-05   TO 0028                 A&E Services
               EP-S7-05-05   TO 003                  A&E Services
               EP-S7-05-05   TO 0010                 A&E Services
               EP-S7-05-05   TO 015                  A&E Services


                                     14 

                                                                                 10-P-0065 




     Region                Contract               WA/TO/TDD*     Type of Contract

                       EP-R7-07-02          TO 0011            ERRS, Region 10
                       EP-R7-07-02          TO 0013            ERRS, Region 10
                       EP-R7-07-02          TO 007             ERRS, Region 10

                       EP-S7-06-01          TO 0023            START III
                       EP-S7-06-01          TO 0048            START III
                       EP-S7-06-01          TO 0051            START III


Region 2               EP-W-04-054          TO 0065            ERRS
                       EP-W-04-054          TO 0057            ERRS

                       68-W-98-214          153-RDRD-0291      RAC
                       68-W-98-214          158-RARA-01G1      RAC

                       EP-W-05-041          TO 0010            ROC III
                       EP-W-05-041          TO 014             ROC III

                       EP-W-05-048          WA 081             Site Assessment Team 2
                       EP-W-05-048          WA 057             Site Assessment Team 2

Source: OIG analysis of contract data.

A&E      Architect and Engineering
HW       Hazardous Waste
OSRE     Office of Site Remediation Enforcement
ROC      Regional Oversight Contract
TDD      technical direction document
TO       task order
WA       work assignment




                                                  15 

                                                                                   10-P-0065


                                                                              Appendix B

                              Agency Response
                                        December 17, 2009

MEMORANDUM

SUBJECT: Response to Draft Audit Report: EPA Superfund Can Improve its Preparation and
Use of Independent Government Cost Estimates, Project OA-FY08-0255

FROM:         Craig E. Hooks
              Assistant Administrator

TO:           Janet Kasper
              Director, Contracts and Assistance Agreements
              Office of the Inspector General

      We appreciate the opportunity to comment on the draft report entitled “EPA Superfund
Can Improve its Preparation and Use of Independent Government Cost Estimates,” dated
November 13, 2009. Our comments on the report and recommendations are below:

Specific Recommendations and Responses:

Recommendation 2-1 - We recommend the Assistant Administrator for OARM
require OAM to update its IGCE guide to address:
       • Technical direction documents that exceed the Simplified Acquisition
         Threshold
       • Emergency acquisitions
       • The Government Accountability Office's cost estimating guide

Response - We concur with this recommendation. This will be a development process to
fold in the three new areas above into the current IGCE guide. OAM will begin the
development and stakeholder review process immediately with completion of guide
revisions by June 1, 2010.

Recommendation 2-2 - We recommend that the Assistant Administrator for
OARM, after the OAM IGCE guide is updated, require EPA regions and program
operating divisions to include compliance with the IGCE guide as part of their
Quality Assurance Programs.




                                               16 

                                                                                        10-P-0065 





Response - While we agree that OAM will update the IGCE guide (see Recommendation
2-1 response above) and work with OSWER to provide IGCE training to Superfund
program staff (see Recommendation 2-5 response below), we do not believe that
contracting offices should be required to modify their QAPs. Section 4.2 of the
Acquisition Handbook states that QAPs shall contain oversight activities for "all primary
contracting workload functions performed by the contracting organization." Page 1 of
this report states that "EPA's program offices are responsible for preparing IGCEs." We
do not believe that the QAPs need to be modified to specifically focus on primary
activities which fall within EPA's program offices.

The Contract Management Manual Section 7.3, "Procurement Initiation and Related
Documentation," lists the Guide for Preparing IGCEs as a guidance source for program
officials, in addition to providing an on-line link to this document. The updated guidance
will be posted on the intranet by June 30, 2010. By updating the guide, assisting
OSWER in providing IGCE training to program officials, and performing current QAP
oversight activities related to reviewing procurement request packages, we believe OAM
will help improve the quality of IGCEs prepared by its customers.

Recommendation 2-3 - We recommend the Assistant Administrator for OARM
eliminate the practice of accepting contractor estimates that differ from IGCEs
without examining the reason for the difference.

Response - We believe this recommendation should be directed to the Assistant
Administrator of OSWER, as well as OARM. These Offices share IGCE responsibilities,
and they will work together to update the guidance and provide training, which will
effectively address this recommendation by June 1, 2010.

Recommendation 2-4 - We recommend the Assistant Administrator for OSWER:
require the Superfund program to update, distribute and maintain its supplemental
tools and guidance used for IGCE preparation (e.g., OSRTI Cost Estimating
Toolbox).

Response - We concur with this recommendation. OSWER will work closely with OAM
to complete this action by September 30, 2010. It should be noted that OSWER provided
formal IGCE training at the Superfund National Association of Remedial Project
Managers' (NARPM) annual training conference and the Superfund Project
Officers/Contracting Officers' (PO/CO) annual conference in July 2009.

Recommendation 2-5 - We recommend the Assistant Administrator for OARM and
Assistant Administrator for OSWER instruct OAM and the Superfund program
office to provide training to Superfund program staff on IGCE tools and databases,
as well as OAM and Superfund IGCE guidance.




                                                17 

                                                                                         10-P-0065 





Response - We concur with this recommendation. OSWER will work closely with OAM
(after guidance updates are completed) to complete the action by September 30, 2010.


General Comments:

Abbreviations - RAC stands for Remedial Action Contract, it is written as Response
Action Contract in the report. This also needs to be corrected in Chapter 1, under
Noteworthy Achievements.

Chapter 1 - Scope and Methodology, page two, second paragraph, first sentence - We
recommend listing the various types of Superfund contracts included in review (e.g.,
Removal, Lab, Remedial, Federal Facilities or Enforcement).

Chapter 2 - Superfund Needs to Better Document Rationale, Assumptions, and
Changes, page five, first paragraph, last sentence - We recommend changing the
sentence to read, "Documentation supporting IGCEs should be included that will allow a
cost analyst unfamiliar with the program to determine how the estimate was developed."




                                                18 

                                                                                 10-P-0065


                                                                             Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Solid Waste and Emergency Response
Regional Administrator, Region 7
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Director, Office of Superfund Remediation and Technology Innovation,
       Office of Solid Waste and Emergency Response
Acting Director, Office of Acquisition Management, Office of Administration
       and Resources Management
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 7
Acting Inspector General




                                            19 

